OFFICE OF INSPECTOR GENERAL




                          May 2, 2000

                          WILLIAM J. HENDERSON
                          POSTMASTER GENERAL

                          SUBJECT:	 Relocation Benefits for Postal Service
                                    Officers (Report Number FR-FA-00-010(R))


                          This is the first in a series of reports examining relocation
                          and other benefits of Postal Service executives. The audit
                          was conducted at the request of both the Chairman of the
                          House Subcommittee on the Postal Service and the Board
                          of Governors in response to an anonymous complaint. The
                          complaint alleged two Postal Service officers obtained
                          relocation benefits for changes in residence within the local
                          commuting area. Our overall objective was to determine the
                          validity of the allegations. We will address the overall
                          relocation program and other officer benefits in subsequent
                          reports.

                          The Postal Service allows the payment of relocation
                          benefits to officers who change official duty stations.
                          Deviations from the relocation policy can be approved if the
                          move is in the best interest of the Postal Service. The
                          postmaster general has authorized the chief financial officer
                          to administer relocation benefits and approve deviations.
                          During fiscal year 1998, there were 45 officers in the Postal
                          Service.

                          On April 20, 2000, the OIG published this report without
                          management’s comments in order to ensure timely
                          dissemination of information to interested parties.
                          Subsequently, comments have been received from
                          management. In addition, on May 1, 2000, the Governors
                          passed a resolution addressing the second and third
                          recommendations of the report. This report has been
                          revised to incorporate the responses of management and
                          the Governors. Also included (Appendix C) is a statement
Relocation Benefits for Postal Service Officers	                                  FR-FA-00-010(R)



                                made by the Chairman of the Board of Governors at the
                                Governors May 2, 2000, meeting. Based on discussions
                                with the Governors, we have also revised portions of the
                                report to clarify the roles of the Governors and the Secretary
                                to the Board.

Background 	                    In 1998 the postmaster general extended an offer of
                                promotion to the controller to become the chief financial
                                officer. The controller requested three benefits, one of
                                which was relocation within the local commuting area, as
                                incentive to accept the promotion. The Compensation
                                Committee of the Board of Governors reviewed two of the
                                three requested benefits, but did not review the relocation
                                benefit of about $142,000 which was approved by the
                                postmaster general. The Board of Governors did not
                                approve two benefits that totaled less than the relocation
                                benefits approved by the postmaster general.

                                The other move occurred because the promotion of the
                                controller created a vacancy that was offered to another
                                officer. The other officer requested two benefits before
                                accepting the offer, one of which was relocation within the
                                local commuting area. The new chief financial officer
                                approved relocation benefits of about $106,000 after
                                consulting with the postmaster general. Second, the officer
                                requested continued participation in the Shared Real Estate
                                Appreciation Loan program, a program established in 1989
                                to offset increased mortgages when moving to high cost
                                areas. As a result, this officer was able to purchase a home
                                that cost about $75,000 more than his prior residence
                                without an increase in mortgage payment.

                                The new residence of the chief financial officer was about
                                15 miles from his previous residence, reducing the officer’s
                                daily one-way commute by about 2.5 miles. The new
                                residence of the controller was about 22 miles from his
                                previous residence, reducing his daily one-way commute by
                                about 20 miles. Table 1 summarizes the distances moved
                                by each officer.




                                                   2
Relocation Benefits for Postal Service Officers                                              FR-FA-00-010(R)



                                               Table 1.
                                          Distances Moved1

                                        Prior                Current           Difference       Distance
                                       Address               Address                            Between
                                                                                               Residences
             CFO
City                                  Fairfax                 Vienna
State and Zip Code                 VA 22032-3252          VA 22182-2101
Miles to Duty Station from             19.2                    16.7             2.5 Miles       15 Miles
Residence
Minutes to Duty Station from              30                    29              1 Minute
Residence
          Controller
City                                  Fairfax               Alexandria
State and Zip Code                 VA 22030-7254          VA 22314-6208
Miles to Duty Station from              26                      6               20 Miles       22.4 Miles
Residence
Minutes to Duty Station from              40                    10             30 Minutes
Residence


Objective, Scope, and           To address the validity of the allegations, we determined
Methodology                     whether: (1) relocation benefits were paid in accordance
                                with applicable laws and regulations; (2) controls over
                                relocation decisions were adequate; and (3) relocations
                                were in the best interest of the Postal Service.

                                To accomplish our objectives we:

                                ��Reviewed Postal Service relocation policies,
                                  procedures, and documentation associated with the two
                                  relocations.
                                ��Interviewed appropriate Postal Service officials.
                                ��Reviewed Internal Revenue Service guidelines for
                                  relocation.
                                ��Compared the Postal Service relocation policy with
                                  those of selected Fortune 500 Corporations.
                                ��Contacted independent relocation organizations.

                                We conducted the audit between January and April 2000 in
                                accordance with generally accepted government auditing
                                standards, and included tests of internal controls as were
                                considered necessary under the circumstances.



1
 The miles and minutes were obtained from http://www.mapquest.com and may vary depending on traffic and road
conditions.




                                                      3
Relocation Benefits for Postal Service Officers                                     FR-FA-00-010(R)



Relocation Benefits             The audit revealed that two officers, who were promoted but
Paid                            did not change duty stations, received relocation benefits of
                                about $248,000 for moves within the local commuting area.
                                As shown in Table 2 below, these benefits included
                                payment for the transportation and storage of household
                                goods, sale of the old residence, purchase of the new
                                residence, miscellaneous items, and related federal, state,
                                and local taxes.

                                                    Table 2.                                          

                                            Relocation Benefits Paid 


              Expense Type                               CFO         Controller         Total
              Transportation of Household                 $12,075         $7,256         $19,331
              Goods/Storage Expense
              Qualified Expenses –                         37,275          31,573         68,848
              Selling/Buying/Leasing
              Miscellaneous Expenses                        25,000         25,000        50,000
              Withholding Tax Allowance                     28,961         24,455        53,416
              Relocation Income Tax Allowance               39,000         17,533        56,533
              Total                                      $142, 311       $105,817      $248,128

                                The relocations were paid as part of an incentive plan and
                                approved as deviations from postal policy, in accordance
                                with the PCES Relocation Policy (Handbook F-11).
                                Although the relocations did not meet the 50-mile distance
                                requirement of the relocation policy, the policy provides that
                                deviations can be granted when it is in the best interest of
                                the Postal Service. For example, postmasters are
                                sometimes moved distances significantly less than 50 miles
                                so that they can live in the same communities as they work.

                                Because one of the officers requesting relocation was
                                normally the approving official, the issue was brought to the
                                postmaster general for approval. In granting the deviations,
                                the postmaster general consulted with the Law Department
                                and the Secretary to the Board of Governors.

Controls Over                   Controls were in place to ensure that the Board of
Incentive Plans                 Governors approved significant provisions of incentive plans
                                with the exception of relocation benefits. The
                                Compensation Committee is a standing committee that is
                                responsible for considering and making recommendations
                                to the Board of Governors on salaries, incentive plans, and
                                other compensation paid to officers.



                                                   4
Relocation Benefits for Postal Service Officers                                     FR-FA-00-010(R)



                                Approval was generally not obtained from the Board of
                                Governors for relocation of officers because the Law
                                Department had determined that relocation benefits were
                                not considered compensation. In addition, the Law
                                Department also determined that several other benefits
                                were not compensation subject to the statutory pay cap,
                                such as:

                                ��Life Insurance Premiums
                                ��Annual Leave Buyback
                                ��Thrift Savings Plan Contributions
                                ��Severance Pay

                                However, it was clear from the interviews with the
                                postmaster general and the officers involved that the
                                relocation payments were made as part of an incentive plan
                                to entice the officers to accept their new positions and to
                                retain highly qualified executives. Both officers indicated
                                they had no other job offers pending when the promotion
                                offers were made and that their acceptance was based on
                                approval of an incentive plan. Further, the postmaster
                                general recognized the relocation requests were potentially
                                controversial and referred the decision as to whether
                                relocation benefits needed Board approval to the Secretary
                                of the Board of Governors after a legal review.

                                The Compensation Committee reviewed the compensation
                                of the chief financial officer. The Secretary believed
                                management had the authority to approve the relocation
                                benefit if it was beneficial to the Postal Service. As a result,
                                he did not notify the Governors that relocation benefits were
                                being considered for an officer moving less than 50 miles.
                                In providing his opinion to Postal management, the
                                Secretary advised that the relocation should not be based
                                on an officer’s desire to move; but should be based on the
                                benefit to the Postal Service. Because both requests were
                                initiated by the officers and did not meet the 50-mile criteria,
                                the Secretary should have followed up to ensure that the
                                conditions for granting deviations were met. However, the
                                Secretary did not request written justification for why the
                                relocations were in the best interest of the Postal Service.

                                The Board of Governors should also have been informed of
                                the decision to authorize additional shared real estate
                                appreciation for the controller. A shared appreciation loan




                                                   5
Relocation Benefits for Postal Service Officers                                     FR-FA-00-010(R)



                                enables a qualified officer to offset increased mortgage
                                costs on a residence. This is accomplished when the Postal
                                Service officer agrees to roll over any equity from a prior
                                residence to the purchase of a new residence, and the
                                Postal Service agrees to absorb any increase in the overall
                                cost of the home and hold the mortgage. When the home is
                                sold, the Postal Service is entitled to a return of its equity
                                interest and to share in any appreciation.

                                This benefit allows postal officers to relocate to high cost
                                areas without changing their standard of living. The
                                controller received a shared appreciation loan of $333,000
                                from the Postal Service—an increase of $37,000 over the
                                previous loan. Consequently, the Postal Service owned
                                about 36 percent of the controller’s home. As a result, the
                                controller was able to purchase a home that cost about
                                $75,000 more than the prior residence while reducing his
                                mortgage payment as shown in Table 3. In addition, the
                                Postal Service paid for the move by incurring relocation
                                costs of $106,000, and assuming a shared equity in the real
                                estate of $154,000.



                                                 Table 3.
                              Shared Real Estate Appreciation Loan Program

                                                  Former Shared    New Shared     Difference
                                                   Appreciation    Appreciation
                                                      Loan            Loan
                Purchase Home Price                      350,000         424,641       74,641
                Down Payment                              53,500           91,000      37,500
                Amount To Be Financed                    296,500         333,641       37,141
                Fixed (Employee) Portion                 179,400         179,400            0
                Shared Appreciation Loan                 117,100         154,241       37,141
                Shared Percentage                        33.46%           36.32%        2.86%
                Monthly Principal and Interest
                Payment Based On Total                     2,073            2,276            203
                Amount Financed
                Employee Monthly Payment                   1,254            1,224            -30
                Difference                                   819            1,052            233

                Sale Price                               389,000
                Total Gain on Sale of Home                39,000
                Postal Service Gain                       13,049
                Employee Gain                             25,951



                                                   6
Relocation Benefits for Postal Service Officers                                    FR-FA-00-010(R)



                                While the Postal Service grants shared appreciation loans
                                to its executives, a postal official told us that this was the
                                first time it approved payment of this benefit for relocation
                                within the same commuting area. For this reason, the
                                decision to grant this benefit should have been approved by
                                the Board of Governors and considered in conjunction with
                                the incentive plan.

                                If the officer had not been approved for the shared equity
                                program, his monthly payment would have been about
                                $2276 rather than $1224, a monthly benefit of over $1000
                                per month. Generally, this is an untaxed benefit until the
                                house is either sold or refinanced; however, because the
                                move did not meet the Internal Revenue Service’s
                                guidelines for a qualified relocation, this benefit is
                                considered taxable income of over $12,000 each year.

                                In discussing the relocations, neither the postmaster general
                                nor the Secretary to the Board of Governors was aware of
                                how much the relocations would cost or whether the
                                individuals would, in fact, be moving closer to work.
                                Controls need to be established to ensure that the Board of
                                Governors is notified when significant payments are made
                                to officers and that such actions are appropriate and in the
                                best interest of the Postal Service. Further, a formal
                                process should be established to assess the impact of
                                incentive packages and officer compensation on public and
                                employee perception. We could not locate any information
                                that documented why the relocations were in the best
                                interest of the Postal Service.

                                The postmaster general stated that he approved the
                                relocation to ensure that the officers did not leave the Postal
                                Service. The officers, however, stated they had no plans to
                                leave at the time. They instead stated that the relocations
                                were part of an incentive plan connected to their promotions
                                and would enable them to spend more time at the office as
                                opposed to commuting. But there was no evidence that the
                                officers would not have accepted two of the most prominent
                                and influential positions in the Postal Service without the
                                relocations. There was also no evidence that they would be
                                required to work longer hours than previously expected.
                                Consequently, we could not substantiate the assertion that
                                the relocations were in the best interest of the Postal
                                Service.




                                                  7
Relocation Benefits for Postal Service Officers	                                                     FR-FA-00-010(R)



Benchmarking 	                      By allowing for deviations from its relocation policy, the
                                    Postal Service exceeded the relocation benefit packages
                                    offered to executives by private industry and other
                                    government agencies. We compared the Postal Service’s
                                    relocation policy with that of four Fortune 500 companies
                                    and relocation agencies used by major corporations, and
                                    found that the decision to pay these relocation benefits was
                                    inconsistent with industry practices. For example,
                                    corporations we surveyed used Internal Revenue Service
                                    guidelines for allowing relocation expenses. These
                                    guidelines require the change in duty station be more than
                                    50 miles.2 During a period of cost cutting and rising postal
                                    rates, such payments may impact the public’s confidence
                                    and trust in the Postal Service and employee confidence in
                                    management.

Pay Cap 	                           Although the Postal Service’s General Counsel determined
                                    that relocation benefits should be excluded from the
                                    calculation of the statutory pay cap, payment of these
                                    benefits could be perceived as a way to circumvent the
                                    statutory limits on compensation. The total compensation of
                                    all Postal Service executives and officers is subject to the
                                    statutory cap set forth in Title 5 of the U.S.C. that applies to
                                    most appropriated federal agencies. At the time the
                                    relocation benefits were paid, the salary cap was $151,800.

                                                            Table 4.
                                          Taxable Income Reported by the Postal Service

                                                                            CFO                   Controller
                                    Wages, Salaries and
                                    Other Compensation                     $148,274                   $158,5673
                                    (W-2, Box 1)
                                    Relocation                               103,311                     88,284
                                    Total Taxable Income                     251,585                    246,851

                                    The Postal Service reported about $247,000 of taxable
                                    income for the controller and about $252,000 for the chief
                                    financial officer, including salary and relocation benefits.

2
  IRS Publication 521 describes the criteria for deductibility of relocation expenses. It states that for relocation
expenses to be tax deductible, the relocation must be closely related to a new or changed job location. In addition, it
must meet both the distance and the time test. The relocation will meet the distance test if the new main job location
is at least 50 miles farther from the former home than the old job location was from the former home.

3
    Amount includes taxable income not subject to the statutory pay cap.




                                                           8
Relocation Benefits for Postal Service Officers	                                  FR-FA-00-010(R)



                                The officers were also reimbursed for the additional taxes
                                on relocation benefits, totaling $39,000 and $18,000,
                                respectively.

Recommendation                  1. Establish policies and procedures that require written
                                   justification that documents the reasons for relocations
                                   within the same commuting area. At a minimum, the
                                   justification should document why the move is in the best
                                   interest of the Postal Service.

Management's 	                  Management concurred with this recommendation and
Comments 	                      stated that by June 1, 2000, Finance would prepare
                                appropriate changes to the officer relocation policy that
                                would include a requirement for documenting any deviations
                                proposed in the best interest of the Postal Service.
                                Until this process is implemented, the postmaster general
                                has instructed that no deviation of this kind would be
                                considered when moving within the same city.

Recommendations 	               We recommend the postmaster general establish policies
                                and procedures that require:

                                2. All components of officer incentive plans be submitted to
                                   the Board of Governors’ for approval, including
                                   significant compensation that is not subject to the
                                   statutory pay cap.

Management's 	                  Management agreed with the intent of both
Comments 	                      recommendations and stated that the recommendations
                                would be referred to the Board of Governors for
                                consideration.

Board of Governor’s             The Board of Governors concurred with both
Comments                        recommendations two and three. On May 1, 2000,
                                Resolution Number 00-6 was adopted that stated, in part,
                                “each component of the compensation and benefits,
                                including relocation benefits, to be provided to each officer
                                of the Postal Service shall be submitted for the approval of
                                the Board or the Governors.” The resolution also stated that
                                the Board “shall, as appropriate, establish standards for
                                deviation from the benefits program.” The full text of the
                                resolution is at Appendix B.

                                The Chairman of the Board of Governors also issued a
                                statement that the relocations in the report were not in the



                                                   9
Relocation Benefits for Postal Service Officers                                   FR-FA-00-010(R)



                                best interest of the United States Postal Service, and the
                                Board will undertake a review of all officer incentive plans,
                                including compensation and other benefits. The Board
                                encouraged the Inspector General to continue the review of
                                all officer compensation and benefits, and to benchmark
                                with other agencies and corporations. The Board will
                                consider other policy changes once the review is complete.
                                The full text of the Chairman’s statement is at Appendix C.

Evaluation of                   The actions taken by the Board and Management satisfy the
Comments from the               intent of all of our recommendations.
Board of Governors
and Management
                                We will incorporate the results of this audit into our
                                summary report on relocation benefits. We appreciated the
                                cooperation and courtesies provided by your staff during the
                                review. If you have any questions, please contact John
                                Seeba or me at (703) 248-2300.


                                //Signed//
                                Robert L. Emmons
                                Acting Assistant Inspector General
                                  for Performance

                                cc: Governors
                                    John M. Nolan
                                    Mary Anne Gibbons
                                    Deborah K. Willhite
                                    William Johnstone




                                                  10
Relocation Benefits for Postal Service Officers              FR-FA-00-010(R)



                         APPENDIX A. MANAGEMENT'S COMMENTS




                                                  11
Relocation Benefits for Postal Service Officers        FR-FA-00-010(R)




                                                  12
Relocation Benefits for Postal Service Officers        FR-FA-00-010(R)




                                                  13
Relocation Benefits for Postal Service Officers                FR-FA-00-010(R)



                          APPENDIX B. RESOLUTION NUMBER 00-6




                                                  14
Relocation Benefits for Postal Service Officers        FR-FA-00-010(R)



   APPENDIX C. STATEMENT FROM THE CHAIRMAN, BOARD OF GOVERNERS




                                                  15
